No.
In The

Supreme Court of the United States
ERIC DYNELL MCGADNEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
PETITIONER’S MOTION TO PROCEED IN
FORMA PAUPERIS
Christopher S. Burkhalter
Counsel of Record
KIRKLAND & ELLIS LLP
1601 Elm Street
Dallas, Texas 75201
Telephone: (214)972-1764
Facsimile: (214)972-1771
Chris.burkhalter@kirkland.com
Appointed Counsel for
Petitioner pursuant to 18 USC
§ 3006A

November 27, 2020

Pursuant to Tile 18, United States Code 3006(A)(6) and Rule 39 of this Court,
Petitioner Eric Dynell McGadney requests leave to file the attached Petition for a
Writ of Certiorari to the United States Court of Appeals for the Eleventh Circuit
without prepayment of fees or costs and to proceed in forma pauperis.
Petitioner was represented below by the undersigned who was appointed
pursuant to Tile 18, United States Code 3006(a) in an order of the United States
Court of Appeals for the Eleventh Circuit dated August 6, 2019.
Dated: Dallas, Texas
November 27, 2020

Respectfully submitted,
/s/ Christopher S. Burkhalter
Christopher S. Burkhalter
Counsel of Record
KIRKLAND & ELLIS LLP
1601 Elm Street
Dallas, Texas 75201
Telephone: (214)972-1764
Email: chris.burkhalter@kirkland.com
Appointed Counsel for Petitioner
pursuant to 18 U.S.C. § 3006A

